CERTIFICATE OF COMPLIANCE

I hereby certify that the accompanying Brief of
American Association of Christian Schools,
Association for Biblical Higher Education, and
Association of Classical Christian Schools, ss Amici
Curiae in Support of Petitioners, in Woods v. Seattle
Union Gospel Mission, No. 21-144, complies with the
word count limitations of Supreme Court Rule 33(g)
in that it contains 2,056 words, based on the word-
count function of Microsoft Word — Office 365,
including footnotes and excluding material not
required to be counted by rule 33(d).

oe M. Ahrend
